                              Office of the Inspector General

November 22, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Inspector General



Performance Measure Review: Survey of the Sources of the Social Security

Administration’s Performance Measurement Data (A-02-98-01004)



The attached subject final report presents the results of our audit to survey the sources

of information for the 68 performance measures (indicators) that appear in the Social

Security Administration’s Fiscal Year 1999 Annual Performance Plan.


To provide you with the opportunity to present your views relative to the validity of the

facts and reasonableness of the recommendations presented, we request that you

provide written comments within 30 days from the date of this memorandum. If you

wish to discuss the final report, please call me or have your staff contact

Daniel R. Devlin, Acting Assistant Inspector General for Audit, at (410) 965-9700.





                                                 James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL


SOCIAL SECURITY ADMINISTRATION


 PERFORMANCE MEASURE REVIEW:

     SURVEY OF THE SOURCES

     OF THE SOCIAL SECURITY

 ADMINISTRATION’S PERFORMANCE

       MEASUREMENT DATA


 November 1999      A-02-98-01004



AUDIT REPORT

                              Office of the Inspector General


John R. Dyer

Principal Deputy Commissioner

 of Social Security


Inspector General



Performance Measure Review: Survey of the Sources of the Social Security

Administration’s Performance Measurement Data (A-02-98-01004)



The Government Performance and Results Act (GPRA) of 1993, Public Law 103-62,

107 Stat. 285, requires the Social Security Administration (SSA) to develop

performance indicators that assess the relevant service levels and outcomes of each

program activity. GPRA also calls for a description of the means employed to verify and

validate the measured values used to report on program performance. SSA has stated

that the Office of the Inspector General (OIG) plays a vital role in evaluating the data

used to measure performance. The objective of this audit was to survey the existence

of the sources of information for the 68 performance measures (indicators) that appear

in the SSA’s Fiscal Year (FY) 1999 Annual Performance Plan (APP).


RESULTS OF REVIEW

SSA HAS DATA SOURCES FOR ALL INDICATORS

We found that SSA had methods to collect the data used to report on all its performance
measures (indicators), as shown in Appendix C. For those indicators lending
themselves to routine or periodic collection of data, such as the number of claims
processed or field office waiting time, SSA had sources established to measure whether
the stated goals were met. For indicators that did not lend themselves to collection of
information from these data sources, such as research and development and policy
measures, SSA established alternative means to report on the status of the indicator.
These alternative measures included monthly or quarterly progress reports and
timelines established for the delivery of reports.

While SSA has methods to collect data for all indicators, OIG has not verified the
reliability of most of the data. Subsequent audits by OIG will address the reliability of
each performance indicator.
Page 2 – John R. Dyer

CERTAIN PERFORMANCE INDICATORS ARE INCOMPLETE

We found that the data used to measure two indicators does not include all measurable
items. Specifically,

�	 The indicator dealing with the percent of earnings posted to individuals’records by
   September 30 is based upon employee wages as reported on Form W-2 data
   submitted to SSA by employers. The measure does not include earnings from self-
   employment reported to SSA by the Internal Revenue Service.

�	 An Office of Quality Assurance review of a statistical sample of applications for
   original and replacement Social Security numbers (SSNs) is the source of data for
   the indicator measuring the percent of SSNs issued accurately. The review
   compares data on the application, referred to as a Form SS-5, to SSA’s database.
   This review does not include SSN cards issued through the Enumeration-at-Birth
   system, which accounts for approximately 20 percent of SSNs issued.

PREVIOUS REVIEWS HAVE IDENTIFIED WEAKNESSES WITH DATA SOURCES

We identified previously reported data weaknesses that indicated data reliability
problems for 4 of the 68 indicators. Specifically,

�	 A recent OIG audit1 disclosed that the system used to measure the indicator dealing
   with the percent of original and replacement SSN cards issued within 5 days of
   receiving all necessary documentation was unreliable. Specifically, inaccurate data
   was entered into the performance measurement system, all aspects of the issuance
   process were not measured, and formulas used to calculate processing time
   measured parts of the process as taking zero time. SSA agreed to improve the
   accuracy of its data and stated that it adequately measured the entire processing
   time and did not see the necessity for modifications to ensure that the full process
   was measured. Additionally, SSA disagreed with our recommendation to capture
   the time of day the process began, stating that it was not necessary to capture
   partial day processing time.

�	 A recent OIG evaluation2 disclosed that the survey used to measure performance
   indicators did not include all populations of SSA customers and that inclusion of a
   reduced proportion of disabled respondents in FY 1997 may have led to a higher
   level of satisfaction. This survey measures the percent of the public rating SSA
   service as “good”or “very good,”the percent of the public “satisfied”or “very
   satisfied”with the courteousness of SSA staff, and the percent of the public who are


1
 Performance Measure Audit: Timely Issuance of SSN Cards (A-02-97-93003), April 1998.
2
 Performance Measure Review: Evaluation of the Thirteenth Annual Social Security Customer
Satisfaction Survey Data (A-02-97-01004), January 1999.
Page 3 – John R. Dyer

   “satisfied”or “very satisfied”with the clarity of SSA mail. SSA agreed to take action
   to address both concerns.

RECOMMENDATION

While SSA has mechanisms in place to collect, analyze and report data for all its
performance indicators, weaknesses and gaps in the systems and data used to report
performance for some indicators raise questions as to the reliability of the reporting.
SSA has previously agreed to take actions to correct most of the reported deficiencies
and should ensure the timely implementation of the previously reported
recommendations. The process to collect data for two other indicators does not include
all measurable items. Accordingly, we recommend that SSA:

1.	 Take action to either include all measurable items in the percent of earnings posted
    to individuals’records by September 30 and in the percent of SSNs issued
    accurately or clarify those measurable items not included in the indicators in all
    future APP and performance reports.


AGENCY COMMENTS

SSA agreed with our recommendation. Effective with the revised FY 2000 and
2001 APP, the Agency has clarified that self-employment earnings are not
included in the earnings measure. Also, effective with the FY 2000 APP, SSA
clearly states in the definition of the indicator for the percent of SSNs issued
accurately that source data exclude SSNs assigned via the Enumeration-at-Birth
process.

OIG RESPONSE

We appreciate SSA’s concurrence with our recommendation and its clarification
of both indicators in future FYs’APPs and performance reports.



                                                James G. Huse, Jr.
Page 4 – John R. Dyer
                               APPENDICES



APPENDIX A – Background


APPENDIX B – Scope


APPENDIX C – SSA Comments


APPENDIX D - Source of Performance Indicators


APPENDIX E - Bibliography


APPENDIX F - Major Contributors to this Report


APPENDIX G - SSA Organizational Chart

                                                                         APPENDIX A


                               BACKGROUND


Congress enacted the Government Performance and Results Act of 1993 (GPRA) to
improve the performance of the Federal Government. Performance-based
management, as envisioned by GPRA, is a dynamic and complementary process of
setting a strategic direction, defining annual goals and measures, and reporting on
performance. GPRA requires agencies to prepare multiyear strategic plans that set the
general direction for their efforts. Agencies also must prepare annual performance
plans that establish the connections between the long-term strategic goals outlined in
the strategic plans and the day-to-day activities of managers and staff. Additionally,
GPRA requires that each agency report annually on the extent to which it is meeting its
annual performance goals and the actions needed to achieve or modify those goals that
have not been met.

The Social Security Administration’s (SSA) performance plan submitted to Congress
with its Fiscal Year (FY) 1999 budget request established 5 general goals and
68 performance indicators. The general goals are to: (1) deliver customer responsive,
world class service; (2) make SSA program management the best in business, with
zero tolerance for fraud and abuse; (3) promote valued, strong, and responsive, social
security programs and conduct effective policy development, research, and program
evaluation; (4) strengthen public understanding of the Social Security programs; and
(5) be an employer that values and invests in each employee.

The success of GPRA hinges on the quality of the data used to measure and report
upon program performance. The November 1997 report of the Congressional Results
Caucus stated “. . . data capacity problems pose one of the most serious barriers to
effective implementation of the Results Act.” However, congressional, the General
Accounting Office, and the Office of the Inspector General (OIG) reports have raised
concerns about the reliability of the data reported in agencies’performance plans. An
additional issue is whether the type of data that is currently being produced can
measure the outcome of SSA’s programs and services, rather than just program and
service output.

SSA indicated that the data systems underlying the annual accountability report would
be reviewed by OIG. Accordingly, we reviewed all 68 performance indicators to identify
the systems SSA has established to generate information on meeting the indicator’s
goals. Subsequent audits by OIG will address the reliability of each performance
indicator.
                                                                          APPENDIX B


                 SCOPE AND METHODOLOGY


This review was conducted to identify the data sources the Social Security
Administration (SSA) uses to report performance for the 68 indicators that appear in the
1999 Annual Performance Plan (APP). This is part of the Office of the Inspector
General’s (OIG) on-going role to verify and validate SSA’s performance measure
reporting and is a preliminary step to undertaking detailed audits of each indicator.

To meet our objectives, we analyzed SSA’s APP, Accountability Report, and supporting
documents to determine what systems and data bases exist that capture performance
data. Through interviews with SSA program, information management, policy, and
quality assurance staff and review of SSA policies and procedures, we documented
SSA methodologies and procedures used to produce performance data for each of the
indicators. We contacted SSA, OIG, the General Accounting Office, and independent
public accountants to identify reviews that may have been done on the systems and
processes that collect, analyze, and report on the performance indicators. We obtained
and analyzed over 45 reports and evaluations deemed relevant to issues affecting the
completeness and consistency of the data (see Appendix D). We also reviewed,
analyzed, and determined the current status of issues raised in the June 1996 Report of
the Management Information Partnership Team affecting data reliability. Our survey did
not review the reliability of the data sources. We only determined whether these
sources had been reviewed, either by internal or external entities, and whether any
weaknesses in the indicators were identified.

The work was performed by the New York Regional Office from August 1998 to
April 1999. Our audit was performed in accordance with generally accepted
government auditing standards.
                APPENDIX C


SSA COMMENTS

COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "PERFORMANCE MEASURE REVIEW: SURVEY OF THE SOURCES OF THE
SOCIAL SECURITY ADMINISTRATION'S PERFORMANCE MEASUREMENT DATA"
(A-02-98-01004)


Recommendation

Take action to either include all measurable items in the percent
of earnings posted to individuals' records by September 30 and in
the percent of Social Security numbers (SSN) issued accurately or
clarify those measurable items not included in the indicators in
all future Annual Performance Plans (APP) and performance reports.

Comment

We agree. Effective with our revised final fiscal year (FY) 2000
APP and in our FY 2001 APP, we have clarified that self-employment
earnings are not included in the earnings measure.

We have made the following changes to the earnings process
indicator:

Indicator FROM:              Indicator TO:

Percent of earnings posted   Percent of wages posted to
to individuals' records by   individuals' records by
September 30                 September 30

Also, effective with our FY 2000 APP, we clearly stated in the
definition of the indicator for the percent of SSNs issued
accurately that source data exclude SSNs assigned via the
Enumeration-at-Birth process and the time associated with the
delivery of the SSN card to the applicant.




                                C2

                                                                            APPENDIX D


           SOURCE OF PERFORMANCE INDICATORS



#    Indicator                                     Source of Indicator Data

    1 Percent of callers who successfully access American Telephone and Telegraph
      the 800 number within 5 minutes of their   Company (AT&T) Automatic Number
      first call                                 Identification (ANI) Records

    2 Percent of callers who get through to the    AT&T ANI Records
      800 number on their first attempt

    3 Percent of the public with an appointment    Field Office Waiting Time Study performed
      waiting 10 minutes or less                   by the Office of Workforce Analysis (OWA)

    4 Percent of the public without an             Field Office Waiting Time Study performed
      appointment waiting 30 minutes or less       by OWA

    5 Increase the customer base for the Social    Services offered on SSA Internet web site
      Security Administration (SSA) Online and
      bring a modified online personal earnings
      and benefit estimate statement (PEBES)
      response to full-scale operation

    6 Complete a business case analysis for       SSA's Internet web site
      future online services and bring up two new
      online services

    7 Complete development of SSA standards        Revised Federal policy makes this indicator
      for client authentication and establish a    obsolete
      leadership role in government-wide
      authentication policy

    8 Take retirement or survivors claims          Modernized Claims System (MCS)
      immediately over the telephone, or in        A workgroup was established
      person, as long as the applicant has all     in October 1997 to develop a measure.
      needed information

    9 Provide overnight electronic Social Security System is under development
      number (SSN) verification for employers




                                             D1

#   Indicator                                      Source of Indicator Data

10 Give employers the option to transmit wage Annual Wage Reporting System (AWRS);
   reports to SSA electronically using a      Electronic Wage Reporting Subsystem
   personal computer or high speed
   transmission lines

11 Initial disability claims processing time       MCS; Modernized SSI Claims Systems
   (days)                                          (MSSICS);
   NOTE: Measure combines Disability               SSI Initial Claims Exception Control
   Insurance (DI) and Supplemental Security
   Income (SSI) average processing time for
   the last month of the fiscal year.

12 Percent of DI claims decided within          Modernized Claims System (MCS)
   6 months after onset or within 60 days after
   effective filing date, whichever is later

13 Percent of SSI disability claims decided        MSSICS; SSI Initial Claims Exception
   within 60 days of filing                        Control

14 Hearings processing time (days)               Caseload Analysis from Hearings Office
   NOTE: Measure uses final month of the         Tracking System (HOTS)
   year and includes time to release a
   decision, but does not include post-Office of
   Hearings and Appeals processing.

15 Percent of hearings decisions made and          HOTS
   notices sent within 120 days of filing

16 Percent of Old-Age and Survivors                 MCS
   Insurance claims processed by the time the
   first regular payment is due, or within
   14 days from the effective filing date, if later

17 Percent of initial SSI aged claims              MSSICS; SSI Initial Claims Exception
   processed within 14 days of filing date         Control

18 Percent of original and replacement Social Modernized Enumeration System (MES)
   Security cards issued within 5 days of
   receiving all necessary documentation
   NOTE: Time is measured until sent to
   mailroom; not postmarked.



                                             D2

#   Indicator                                  Source of Indicator Data

19 Percent of public rating SSA service as     SSA/Office of Quality Assurance (OQA)
   "good" or "very good"                       Annual Customer Survey (previously done
   NOTE: This was to be an interim measure by OIG)
   until "very good" was replaced with
   "excellent" as the top scale. The Office of
   the Inspector General (OIG) report
   (A-02-96-02204) approved the change.
   Results are combined from field offices
   (FO) and teleservice centers (TSC).

20 Percent of public "satisfied" or "very   SSA/OQA Annual Customer Survey
   satisfied" with the courteousness of SSA (previously done by OIG)
   staff
   NOTE: Results are combined from FO and
   TSC.

21 Percent of public who are "satisfied" or      SSA/OQA Annual Customer Survey
   "very satisfied" with the clarity of SSA mail (previously done by OIG)

22 Number of initial disability claims processed MCS

23 Initial disability claims pending           MCS

24 Number of hearings processed                HOTS

25 Hearings pending                            HOTS

26 Retirement and survivors insurance (RSI)    MCS
   claims processed

27 SSI aged claims processed                   MSSICS; SSI Initial Claims Exception
                                               Control

28 SSI non-disability redeterminations         Central Office Redetermination Control

29 Representative payee (Rep Payee) actions Rep Payee Work Management System

30 SSN requests processed                      MES

31 800 number telephone calls handled          AT&T ANI Records

32 Annual earnings items                       AWRS


                                         D3

#   Indicator                                   Source of Indicator Data

33 Percent of earnings posted to individuals'   Earnings Record Maintenance System
   records by September 30th.                   (ERMS); earnings posted overall
                                                consolidated year-to-date (EPOXY) counts

34 Percent of earnings items posted correctly EPOXY and QA Reviews
   NOTE: Measure is based upon the total
   value of earnings posted, not individual
   earnings items.

   Dollar accuracy of OASI payment outlays:
35 Percent without overpayments                 RSI Stewardship Report
36 Percent without underpayments                MCS, retirement, survivors and
                                                disability insurance (RSDI)-post entitlement
                                                (PE), ERMS
    NOTE: This does not include DI; OQA will
    pilot a nonmedical DI sample in FY 1998.

37 Disability Determination Service decisional FY Disability OQA Reports, MCS, RSDI-PE,
   accuracy                                    SSI Record Maintenance System, MSSICS,
                                               ERMS

38 Percent of SSN's issued accurately           Enumeration Process Quality Review Report
   NOTE: Does not measure Enumeration-At- by OQA
   Birth SSNs. Errors classified as critical or
   major.

39 Percent of 800 number calls handled          Evaluation of 800 number service by OQA
   accurately: payment accuracy

40 Percent of 800 number calls handled          Evaluation of 800 number service by OQA
   accurately: service accuracy

41 Complete comprehensive action plan to        SSI Initiatives Tracking Report
   improve management of the SSI program

42 Number of continuing disability reviews      National Disability Determination Services
   (CDR) processed                              (NDDS) System; Office of Disability (OD)
                                                databases

43 Percent of multi-year (FY1996-2002) CDR CDR Control File for Title XVI;
   plan completed                          Master Beneficiary Record- Title II; NDDS
                                           System; OD databases


                                          D4

#   Indicator                                    Source of Indicator Data

44 Annual increase in debt collection            Data obtained from recovery of overpayment
                                                 accounting record (ROAR),
                                                 overpayment/underpayment subsystem
                                                 (OUPS), supplemental security record (SSR)

45 Overpayment dollars collected                 Data obtained from ROAR, OUPS, SSR

46 Number of allegations that will be opened     Allegation Case Investigation System (ACIS)
   as investigations

47 Dollar amounts reported from investigative ACIS
   activities

48 Number of criminal convictions                ACIS

49 Implement the "Ticket to Independence"   N/A - legislation not enacted
   program contingent upon the enactment of
   legislation in FY 1998

50 Increase the opportunities that disabled      Number of grants awarded (9 states)
   beneficiaries have to receive vocational
   rehabilitation services by contracting with
   alternate providers

51 Conduct the Disability Evaluation Study       Office of Research, Evaluation and Statistics
   (study fielded by FY 2000; final report
   issued by FY 2001)

52 Complete training of a prototype on an       Office of the Commissioner
   improved method for making sound
   decisions regarding the capacity for
   persons with disabilities to work by FY 2001

53 Complete all currently planned return-to-     Number of cooperative agreements entered
   work research analysis (by FY 2002)           with states (12)

54 Establish an on-going retirement policy       Progress reports
   research consortium




                                           D5

#   Indicator                                    Source of Indicator Data

55 Expand our income modeling capabilities to Simulation models
   research consortium include all sources of
   retirement income

56 Complete analysis of the operational        Department of Treasury
   implications of major proposals by Advisory
   Council for long-term financing

57 Conduct planned research and policy           Indicators 51, 54, 55 and 56
   evaluation necessary to assist the
   Administration & Congress in devising
   proposals to strengthen and enhance the
   Social Security program

58 Percent of individuals issued SSA-initiated PEBES Management Information System
   PEBES as required by law                    (MIS)

59 Number of PEBES issued upon request           PEBES MIS
   and automatically by SSA

60 Percent of public who perceive they are        American Counsel of Life Insurance
   "very well informed" or "fairly well informed" Monitoring Attitudes of the Public Survey
   about Social Security

61 Percent of front-line employees with          Event Management System, Inventory Data
   intelligent work-stations connected to a      System
   local area network

62 Percent of offices receiving Interactive   Office training counts, IVT System
   Video Training Interactive Distance
   Learning (IVT/IDL) connectivity as planned

63 Implement formal management                   Office training counts
   development programs

64 Percent of managerial staff participating in Form 350 counts
   management/ leadership development
   experiences

65 Complete Agency plan for transitioning to     Retirement Wave Study (October 1998)
   the workforce of the future



                                           D6

#   Indicator                                       Source of Indicator Data

66 Percent of employees reporting they are          SSA Employee Physical Security Survey
   satisfied with the level of security in their    NOTE: Survey does not consider non-
   facility                                         respondents.

67 Complete environmental indoor air quality        Indoor air quality survey reports
   surveys for SSA's facilities and complete
   corrective actions noted in reports

68 Complete water quality testing in SSA            Water sampling survey reports
   facilities and remediate identified offices
   with contaminants




                                              D7

                                                                           APPENDIX E


                               BIBLIOGRAPHY


Booz, Allen & Hamilton, Inc. “Social Security Administration Office of Hearings and
Appeals: Information Technology Assessment,”McLean, Virginia, 1997.

Brown & Company, CPAs, PLLC, “Consolidated Review of the Debt Management
System,”Arlington, Virginia, 1998.

Brown & Company, CPAs, PLLC, “Consolidated Review of the Earnings Record
Maintenance System,”Arlington, Virginia, 1996.

Brown & Company, CPAs, PLLC, “Consolidated Review of the Supplemental Security
Income (SSI) Record Maintenance System,”Arlington, Virginia, 1997.

Brown & Company, CPAs, PLLC, “Consolidated Review of the Social Security Number
Establishment and Correction System,”Arlington, Virginia, 1996.

Department of Health and Human Services, Office of Inspector General, “Access to
Social Security’s 800 Number,”Washington, D.C., 1993.

Management Information Partnership Team, “The Report of the Management
Information Partnership Team,”Baltimore, Maryland, Social Security Administration,
1996.

Office of Workforce Analysis, “Predicting Retirement Attrition for a Maturing Workforce,”
Baltimore, Maryland, Social Security Administration, 1998.

PricewaterhouseCoopers, “Fiscal Year 1998 Management Letter for the Social Security
Administration- Part 2,”Arlington, Virginia.

Social Security Administration, “Accountability Report for Fiscal Year 1995: Linking
Program and Financial Results,”Baltimore, Maryland, 1995.

Social Security Administration, “Accountability Report for Fiscal Year 1997,”Baltimore,
Maryland, 1997.

Social Security Administration, “Accountability Report for Fiscal Year 1998,”Baltimore,
Maryland, 1998.

Social Security Administration, Office of Inspector General/Office of Audit, “Audit of
Separation of Duties in the Social Security Administration’s Modernized Supplemental
                                           E1

Security Income Claims System,”Baltimore, Maryland, 1997.

Social Security Administration, Office of Inspector General/Office of Audit, “Review of
Internal Controls in the Social Security Administration’s Modernized Claims System,”
Baltimore, Maryland, 1997.

Social Security Administration, Office of Inspector General/Office of Audit, “Performance
Measure Review: Evaluation of the Thirteenth Annual Social Security Customer
Satisfaction Survey Data,”Baltimore, Maryland, 1999.

Social Security Administration, Office of Inspector General/Office of Audit, “Performance
Measurement Audit: Timely Issuance of Social Security Number Cards,”Baltimore,
Maryland, 1998.

Social Security Administration, Office of Quality Assurance and Performance
Assessment, “Report of Earnings Posting Accuracy for Tax Year 1995-Information,”
Baltimore, Maryland, Social Security Administration, 1998.

Social Security Administration, Office of Quality Assurance and Performance
Assessment, “Draft Report on the Quality of the Enumeration Process, CY 1997,”
Baltimore, Maryland, Social Security Administration, 1998.

U.S. General Accounting Office, Health, Education and Human Service Division, “The
Results Act: Observation on the Social Security Administration’s Fiscal Year 1999
Performance Plan,”Washington, D.C., 1998.




                                           E2

                                                                      APPENDIX F


                       MAJOR CONTRIBUTORS



Office of the Inspector General

E. Scott Patterson, Director, Management Audits and Performance Monitoring

Frederick C. Nordhoff, Acting Director, Financial Management Audit
  Division and Performance Monitoring

Timothy F. Nee, Deputy Director

Stephen L. Liebman, Senior Auditor-in-charge

Jack Harrison, Senior Auditor

Cheryl Robinson, Writer-Editor, Technical Services

For additional copies of this report, please contact the Office of the Inspector
General’s Public Affairs Specialist at (410) 966-5998. Refer to Common
Identification Number A-02-98-01004.
                            APPENDIX G


SSA ORGANIZATIONAL CHART

